<Po -

^P'wne Court, US"
FILED

No.

MAY - 4 2021

In The
Supreme Court of the United States

■2WCEOF7WECLERK

Petition for Writ of Certiorari

Arthur 0. Armstrong
Petitioner
Vs.
North Carolina,
Farris Thomas Law Office,
Thomasine E. Moore,
Fannie Farmer,
Nina A. Night,
Bessie A. Jones,
Marjorie A. Evans,
John Jones,
Milton F. Fitch, Jr.,
Joseph Whitley,
Walter Evans,
Bruce Stephen Ammons,
Charles C. Farris, Jr
Respondents

Petition for writ of Certiorari

ON PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT OF NORTH CAROLINA

Arthur 0. Armstrong, Pro se
8113 Pleasant Hill Road

lie RECEIVED
252-236-791
"may - 7 2021
Elm City,

SUPIR EMeTCo5ffif|RQK

QUESTIONS PRESENTED
1. Whether respondents transgressed the Fourth and Fourteenth Amendments to the
Constitution of the United States when appellees on or about December ±2,1991 acted with
encroachment on private land of petitioner to construct a septic tank.
2. Whether respondents acted in a conspiracy to deny the existence of a bona fide Will
and Last testament to deprive petitioner of land and property Willed to him in the Will and Last
Testament without due process of law.

ii
Proceeding and Related Cases
All parties appear in the caption are on the cover page.
RELATED CASES
Armstrong v. North Carolina, et al - 03-CvS-01939-MFF - Wilson County Superior Court
judgment entered November 23,2020.
Armstrong v. North Carolina, et al 41-P-17-8 - Supreme Court of North Carolina, entered April
14, 2021
Rule 26.1 Corporate Disclosure Statement:
There is no parent or publicly held company owning 10% or more of the corporate stock.
TABLE OF CONTENT
Questions presented

i

Disclosure Statement

ii

Table of Content

ii

Opinion Below

1

Jurisdictional statement

1

Constitutional and Statutory statements

1

Statement of the Case.

1

Reasons for granting the Petition

8

Conclusion

8
index to Appendix

Appendix A: On April 14,2021, Supreme Court of North Carolina dismissed petitioner's
complaint and denied his motion for relief
Appendix B: On November 23,2020, trial court dismissed petitioner's complaint and denied

iii
Appendix C: Constitutional and statutory provision set out with appropriate citations.
him motion for relief

1
Jurisdiction Statpmon*
The date on which the Supreme Court of North C
Constitutional and statutory Provisions involved

arolina decided my case was April 14,2021

Constitutional ProvideFourth Amendment
Fourteenth Amendment
Statutory PrmricUn.
28 U.S.CS. 1254(1)

28 U.S.CS. 1291
28 U.S.C.S. 1746
42 U.S.CS. 1985
42 U.S.CS. 1986
Set out verbatim the constitute

na| and statutory provisions involved.

STATEMENT nr ruc^^r
1. Petitioner resides at 8113 Pleasant Hill R
oad. Elm City, NC 27822.
2. Respondents acted in

a conspiracy.

3. In the furtherance of such

a conspiracy, respondents failed to conform to the

requirements of the federal constitution

and laws of the United States when respondents fa

to conform to the requirements of the federal constitution

iled

and laws of the United States when
respondents acted with reckless indiffe

rence and wanton disregards for the truth
or falsity and
the rights of petitioner and others when
respondents without probable
cause, acted with
including, but not limited to: arbitrariness,
capriciousness, malice, fraud, trickery,

RICO,

racketeering, gross
negligence, pattern of racketeerin
distortion, extortion and vandali
law when respondents Nina A.

g activities, elusive, encroachment, assault, intimidation,

sm to deprive petitioner of property without due process of

Knight and Marjorie A. Evans on Septembe

r 12,1989 denied

2
petitioner access to the House while mother visited Bessie Jones in Philadelphia. PA. when
respondent Marjorie Evans refused to unlock the door and Nina Knight threatened petitioner
with bodily injuries when she said: Charlie, her late husband, got a gun and she can use it if
petitioner persisted on over night residential occupation. Petitioner was farming the K

acres

of land with a sweet potatoes crop and was there to harvest his produce along with his son,
and two daughters Arthur, Courtney and Monica living in Greensboro at the time, since
September 1, ±978.
4.

On or about December 12,1990 respondents Bessie and John Jones, a construction

worker for AT and T, for about fifty year, with a vast retirement plan sought an attorney to
disregard the Will and Last Testament when respondents dumped a great sum of money on
Farris Thomas law office to act with fraud, deceit and misrepresentation on the premise that
petitioner will never know the tricks of the trade when respondent without a second thought
for the service charged or received a sum in excess of $150,000.00 with a guarantee that

no

investigation will ensure thereafter and that petitioner will not know what hit him and that
every one will be safe and sound and petitioner's litigation skill is inept and any lawsuit will be
frivolous, ridiculous and ignored - petitioner is black and law office is White.
5. That on January 1,1991, or some such time, respondent Clerk of Court, Joseph Whitley, in
violation of the July 9,1968 Will and Last Testament, acted with gross negligence when respondent
approved respondent's Nina A. Knight's application as the probate administrators for the Armstrong's
Estate. Or that he failed to discover or discovered the existence of the living Will and Last testament
filed in the probate office but acted with active connivance in the making of the no July 9,1968 Will

and

Last Testament false reports and other conduct amounting to official discrimination clearly sufficient to
constitute denial of rights protected by the Equal Protection Clause to deprive petitioner of house and K
acre of land Willed to petitioner in the Will and Last testament.

3
6-

That on March 2,1991,

respondents, Bessie Jones, Nina A. Knight, Waite

law) Fannie Farmer (unknown) gather at the probate offi

r Evans (a brother -in-

ce and swore that the proceeding was legal

and

ere existed no Will and

Last Testament signed by any one including Fannie P. A

rmstrong and James A. Armstrong, when at all
times relevant Clerk of Court, Joseph Whitl
ey maintain the Will was filed in the probate office.
Respondent Charles C. Farris, Jr. had a duty to
act in his client's best interest when respondent
failed to investigate every phase of the case prio
rt°the action °r investigated every phase of the case
prior to the action but failed to discover the
and Last Testament in the clerk's office but
and Last Testament fate

living Will and Last Testament or discovered the filed Will

acted with active connivance in the making of the no Will

ereeorts and other conduct amounting to official discrimin
ation clearly

sufficient to constitute denial of rights protected by the Equ

al Protection Clause to construct a DEED
on March 1, 1992 deeded the 37 acres of land,

the 8468 farm house and K acre on which it

without due process of law in violation of the Fourteenth A

and

is situated

mendment to the Constitution of the United
States.
8.

On April 1,1992,

respondent needed more land for added

Joseph Whitley granted such
9-

construction and the respondent

request furthering the encroachment.

That on January 18,1994 mother died.
On April 23,1994, respondent Nina A. Knight breached her fidudaiy responsibility when

.be failed to „,d

w.

Ust

^^

^^—^

connivance in the making of the ”7
Every thing on this side of Orchard Road belongs to the girls
and every thing on the other side of the

road belongs the boys false reports and other conduct

amounting to official discrimination clearly sufficient to constit
ute denial of rights protected by
the Equal Protection Clause to deprive the
petitioner of property without due process of la w
and in violation of the Will and Last Testament.

4
11. In 1995, petitioner filed a lawsuit against respondent Nina A. Knight but was suggested by
Frank Brown in 2003 to start all over again.
12. That on or about, but not limited to May 29,1997, respondent Bruce Stephen Ammons
had moved in petitioner's property and threatened the petitioner when petitioner traveled
from Greensboro, NC to his 8468 Orchard Road, Elm City, NC 27822 farm house to look after his
property, when respondent came to the door and said, "you almost got shot, I didn't know who
you was", and went back in the house and locked the door.
13. And on subsequent time, perhaps, when petitioner visited the home place, to visit his
brother, Willie, nearby and sister Nina A. Knight, respondent, knowingly the house belongs to
the petitioner would follow behind him and put on his defensive mechanism like asking his
mother, "Is every thing Okey, like is he trying to get the house or some such thing or is he
harassing you. And at one instant, while I was visiting his mother at her house, he, respondent
Bruce Ammons came bursting through the door, picked up a butcher knife and tried to cut the
petitioner with it when his mother cried out "No Brucel No Bruce! No. Don't do that! Then on
on May 19,1999, respondent vandalized petitioner's '65 Pontiac Classic while it was parked in
the yard, claiming it was parked in his flower bed with a six foot by 2" pole when he drove the
nail spiked pole through the trunk lid of petitioner's car leaving a gapping hole; court found him
guilty and charged him accordingly.
14. That on November 23,2003, at 03-CvS-01939-MFF, petitioner filed lawsuit against the
Armstrong Estate including the siblings: Knight, Evans and Bessie Jones.
15. Respondents acted in a conspiracy.
16. That in the furtherance of such a conspiracy on August 12, 2004, respondents failed to
conform to the requirements of the federal constitution and laws of the United States when

5
respondents acted with reckless indifference
the rights of petitioner and others when
including but not limited to:

and wanton disregards for the truth or falsity

respondents, without probable

arbitrariness, capriciousness, malice, fraud,

vandalism, d,c„,. *** «*«,.

and

cause, acted with
RICO, trickery,

gross

misrepresentation, pattern of racketeers

g activities, assault, intimidation, illegal occupation

when respondents co "spired to go in disguise on the premise thereof for the purpose of
depriving the petitioner, either directly of indirectly, th
e equal protection of the law or of equal
privileges and immunities under the law;

or for the purpose of hindering or preventing the

constituted authorities within any State or Territory from givi

ng or securing the petitioner

within any State or Territory the equal protection of the I
aw to deprive petitioner of his
property without due process of law when

respondent Milton F. Fitch ir acted with active

connivance in the making of the Fannie P. A

rmstrong 8468 Orchard Road Farm house plus A

acre of land false reports and other conduct
amounting to official discrimination clearly
sufficient to constitute denial of rights protected by the
equal Protection Clause to deprive
petitioner of his property without due process of law in violati
on of the Fourth and fourteenth
Amendments to the Constitution of the United States.
17. That respondent Thomasine E. Moore

acted with gross negligence when respondent

failed to investigate every phase of petitioner's case prio
r to the action or investigated every
Phase of the case prior to the action but failed to discover or d
Jiscovered the existence of the
living Will and Last Testament displaying the 8468 Orch
ard Road farm house + K acre of land
belonging to Petitioner but acted with active connivance in the
making of the petitioner's
wanting something he is not entitled to falsereports
and other conduct amounting to official
discrimination clearly sufficient to constitute denial of rights protected by the Equal Protection

6
Clause to deprive the petitioner of property without due process of law in violation of the
Fourth and Fourteenth Amendments to the Constitution of the United States.
18. Each conspirator had knowledge of the wrongs conspired to be done and had the power
to prevent or aid in preventing the commission same but neglected or refused so to so.
19. 42 U.S.C.S. 1985 prohibits conspiracy to interfere with civil rights and 1986 proscribes
knowing neglect to prevent {or aid or abet after the fact) such a conspiracy.
20. Respondents aided and abetted after the fact such a conspiracy.
21. That each respondent did some act and omitted some duty and as a result of such
commission, petitioner was deprived of having and exercising any right or privilege of a citizen
of the United States.
22. On August of 2021, respondent Bruce Stephen Ammons threatened the petitioner while
petitioner was tending to business when he yelled to me, YO! What do you want. I drove to the
house and he went inside and locked the door.
23. As a direct and proximate result of respondents' conspiratorial action, petitioner suffered
continuing injuries, including but not limited to: mental distress, mental anguish, psychic injury,
injury to his reputation, humiliation, harassment and intimidation. I pray for judgment in the
sum in excess of $10,000.00.
WHEREFORE petitioner prays for judgment in the sum in excess of $10,000.00 as follows:
1. Compensatory and punitive damages in the sum in excess of $10,000.00 under 42
U.S.C.S. 1985 and 1986 - Civil Rights Act.
2. intangible harm
3. Attorneys fee under Attorney's Awards Act, 42 U.S.C.S 1988; or as a component of
punitive damages.

7
4. Costs and expenses of this action and such other and further relief as the Court deems
just and proper.
Respectfully submitted this the 5th day of May, 2021

'Arthur 0. Armstrong, Petitioner
8113 Pleasant Hill Road
Elm City, NC 27822
DEMANDS JURY TRIAL
Petitioner hereby demands trial by jury on all issues raised by the pleading in th . /

ion.

Arthur^Attw^trprfg, Petitioner
VERIFICATION
I, Arthur O. Armstrong, being first duly sworn, deposes and says that he is the Petitioner in
the foregoing matter and that the allegations set forth in the Petition are true and correct to
the best of his knowledge and belief except for those allegations set forth on information and
belief and as to those allegations he believes them to be true.
May 5, 2021
Arthur OTArpfstVorrgT^etitioner
8113 Pleasant Hill Road
Elm City, NC 27822
AFFIDAVIT OF ARTHUR O. AMSTRONG
I swear under penalty of perjury under U.S. law that the within and foregoing statement set
forth in the verification are true and correct (28 U.S.C.S. 1746.)
jy
March 5, 2021
Arthur O^Arrpstrong, Petitioner

8
REASON FOR GRANTING THE PETITION
The petition should be granted on a federal question that the Supreme Court of North
Carolina has decided an important question of federal law that has not been but should be
settled by this Court or had decided an important question in a way that conflicts with relevant
decision of this Court.
CONCLUSION
Because of the conduct of the respondents, petitioner respectfully requests that petition
for writ of certiorari be granted.
//
May 5, 2021
Artmir O. rmstrongJPetitioner

VU V bll'U b/IW I < MW

Supreme Court of iStortf) Carolina
ARTHUR 0. ARMSTRONG
v
STATE OF NORTH CAROLINA, ET AL.
From Wilson

( 03CVS00105 03CVS00401 03CVS01939 03CVS04584 )

ORDER

Upon consideration of the petition filed by Plaintiff on the 26th of March 2021 in this matter for a writ of certiorari
to review the decision of the Superior Court, Wilson County, the following order was entered and is hereby certified
to the Superior Court:
"Dismissed by order of the Court in conference, this the 14th of April 2021."
$/ Berger, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 16th day of April 2021.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. Hackney
Assistant Clerk, Supreme Court Of North Carolina
Copy to:
Mr. Arthur O. Armstrong, For Armstrong, Arthur O.
West Publishing - (By Email)
Lexis-Nexis - (By Email)

i*

A

